                                        Federal Register / Vol. 63, No. 210 / Friday, October 30, 1998 / Notices                                                                                58399

                                                                                                                                        Responses                    Hours per
                                                                                                                        Number of                                                           Total Burden
                                                Respondent                                                                                  per                      response
                                                                                                                       respondents                                                             hours
                                                                                                                                        respondent                   (minutes)

                                                                                                                              3,600   ........................   ........................             560



  Send comments to Susan G. Queen,                                        publishes abstracts of information                                The Application for NHSC
Ph.D., HRSA Reports Clearance Officer,                                    collection requests under review by the                         Recruitment and Retention Assistance
Room 14–33, Parklawn Building, 5600                                       Office of Management and Budget, in                             submitted by sites or clinicians requests
Fishers Lane, Rockville, MD 20857.                                        compliance with the Paperwork                                   information on the practice site,
Written comments should be received                                       Reduction Act of 1995 (44 U.S.C.                                sponsoring agency, recruitment contact,
within 60 days of this notice.                                            Chapter 35). To request a copy of the                           staffing levels, service users, site’s 5­
  Dated: October 23, 1998.                                                clearance requests submitted to OMB for                         year infant mortality or low birth rate
Jane Harrison,                                                            review, call the HRSA Reports                                   averages, and next nearest site. The
Director, Division of Policy Review and
                                                                          Clearance Office on (301) 443–1129.                             information on the application is used
Coordination.                                                               The following request has been                                for determining eligibility of sites and to
[FR Doc. 98–29111 Filed 10–29–98; 8:45 am]                                submitted to the Office of Management                           verify the need for NHSC providers.
BILLING CODE 4160–15–P                                                    and Budget for review under the                                 Sites must submit applications annually
                                                                          Paperwork Reduction Act of 1995:                                or when they need a provider.
                                                                          Proposed Project: Application for NHSC                            Estimates of annualized reporting
DEPARTMENT OF HEALTH AND                                                  Recruitment and Retention Assistance
HUMAN SERVICES                                                                                                                            burden are as follows:
                                                                          (in Use Without Approval)
Health Resources and Services                                               The National Health Service Corps
Administration                                                            (NHSC) of the HRSA’s Bureau of
                                                                          Primary Health Care assists underserved
Agency Information Collection
                                                                          communities through the development,
Activities: Submission for OMB
                                                                          recruitment, and retention of primary
Review; Comment Request
                                                                          health care clinicians dedicated to
  Periodically, the Health Resources                                      serving people in health professional
and Services Administration (HRSA)                                        shortage areas.

                                                                                                                                        Responses
                                                                                                                        Number of                                    Hours per              Total burden
                                               Type of report                                                                               per
                                                                                                                       respondents                                   response                   hour
                                                                                                                                        respondent

Application ........................................................................................................     1,000                  1                         .75                   750



  Written comments and                                                    SUMMARY:    This Federal Register notice                        Government to resolve these matters.
recommendations concerning the                                            sets forth the OIG’s recently-issued                            Based on insights gained from a pilot
proposed information collection should                                    Provider Self-Disclosure Protocol. This                         program undertaken as part of
be sent within 30 days of this notice to:                                 Self-Disclosure Protocol offers health                          Operation Restore Trust, discussions
Wendy A. Taylor, Human Resources                                          care providers specific steps, including                        with the provider community and the
and Housing Branch, Office of                                             a detailed audit methodology, that may                          growing need for an effective disclosure
Management and Budget, New                                                be undertaken if they wish to work                              mechanism, the OIG has now developed
Executive Office Building, Room 10235,                                    openly and cooperatively with the OIG                           a more open-ended process, or protocol,
Washington, DC 20503.                                                     to efficiently quantify a particular                            for making a disclosure and allowing a
  Dated: October 23, 1998.                                                problem and, ultimately, promote a                              health care provider to cooperative work
Jane Harrison,
                                                                          higher level of ethical and lawful                              with the OIG. Unlike the previous
                                                                          conduct throughout the health care                              voluntary disclosure pilot programs,
Director, Division of Policy Review and
Coordination.
                                                                          industry.                                                       this self-disclosure protocol gives
                                                                          FOR FURTHER INFORMATION CONTACT: Ted                            detailed guidance to the provider on
[FR Doc. 98–29112 Filed 10–29–98; 8:45 am]
                                                                          Acosta, Office of Counsel to the                                what information is appropriate to
BILLING CODE 4160–15–P
                                                                          Inspector General, (202) 619–2078.                              include as part of an investigative report
                                                                                                                                          and how to conduct an audit of the
                                                                          SUPPLEMENTARY INFORMATION: The OIG
DEPARTMENT OF HEALTH AND                                                                                                                  matter, while setting no limitations on
                                                                          has long stressed the role of the health
HUMAN SERVICES                                                                                                                            the conditions under which a health
                                                                          care industry in combating health care
                                                                                                                                          care provider may disclose information
                                                                          fraud, and believes that health care
Office of Inspector General                                                                                                               to the OIG.
                                                                          providers can play a cooperative role in
                                                                          identifying and voluntarily disclosing                            A reprint of the OIG’s Provider Self-
Publication of the OIG’s Provider Self-
                                                                          program abuses. The OIG’s use of                                Disclosure Protocol follows.
Disclosure Protocol
                                                                          voluntary self-disclosure programs, for                         Provider Self-disclosure Protocol
AGENCY: Office of Inspector General                                       example, is premised on a belief that
                                                                          health care providers must be willing to                        I. Introduction
(OIG), HHS.
                                                                          police themselves, correct underlying                             The Office of Inspector General (OIG)
ACTION: Notice.
                                                                          problems and work with the                                      of the United States Department of
58400                  Federal Register / Vol. 63, No. 210 / Friday, October 30, 1998 / Notices

Health and Human Services (HHS)             providing viable opportunities for self­      conducts a national review of a
relies heavily upon the health care         disclosure. By establishing this Protocol,    particular billing practice, providers
industry to help identify and resolve       the OIG renews its commitment to              should consider the option of
matters that adversely affect the Federal   promote an environment of openness            conducting a limited assessment of the
health care programs (as defined in 42      and cooperation. The Protocol has no          practice under OIG review, rather than
U.S.C. 1320a–7b(f)). The OIG believes       rigid requirements or limitations.            incur the expense of a comprehensive
that, as participants in the Federal        Rather, it provides the OIG’s views on        audit. In such cases, an audit that
health care programs, health care           what are the appropriate elements of an       conforms to the Protocol’s guidelines
providers have an ethical and legal duty    effective investigative and audit             may be appropriate only in instances
to ensure the integrity of their dealings   working plan to address instances of          where a preliminary assessment
with these programs. This duty includes     non-compliance. Providers that follow         suggests the provider has in fact
an obligation to take measures, such as     the Protocol expedite the OIG’s               engaged in the practices under OIG
instituting a compliance program, to        verification process and thus diminish        scrutiny.
detect and prevent fraudulent, abusive      the time it takes before the matter can
                                                                                          II. The Provider Self-Disclosure Protocol
and wasteful activities. It also            be formally resolved. Failure to conform
encompasses the need to implement           to each element of the Protocol is not           Unlike the earlier pilot program, there
specific procedures and mechanisms to       necessarily fatal to the provider’s           are no pre-disclosure requirements,
examine and resolve instances of non­       disclosure, but will likely delay the         applications for admission or
compliance with program requirements.       resolution of the matter.                     preliminary qualifying characteristics
Whether as a result of voluntary self­         The OIG’s principal purpose in             that must be met. The Provider Self-
assessment or in response to external       producing the Protocol is to provide          Disclosure Protocol is open to all health
forces, health care providers must be       guidance to health care providers that        care providers, whether individuals or
prepared to investigate such instances,     decide voluntarily to disclose                entities, and is not limited to any
assess the potential losses suffered by     irregularities in their dealings with the     particular industry, medical specialty or
the Federal health care programs, and       Federal health care programs. Because a       type of service. While no written
make full disclosure to the appropriate     provider’s disclosure can involve             agreement setting out the terms of the
authorities. To encourage providers to      anything from a simple error to outright      self-assessment will be required, the
make voluntary disclosures, the OIG         fraud, the OIG cannot reasonably make         OIG expects the commitment of the
issues this Provider Self-Disclosure        firm commitments as to how a                  health care provider to disclose specific
Protocol (Protocol).                        particular disclosure will be resolved or     information and engage in specific self­
   The concept of voluntary self­           the specific benefit that will enure to the   evaluative steps relating to the disclosed
disclosure is not new to the OIG. For       disclosing entity. In our experience,         matter. In contrast to the pilot
many years, the OIG has worked              however, opening lines of                     disclosure program, the fact that a
informally with providers and suppliers     communication with, and making full           disclosing health care provider is
that came forward to cooperate with         disclosure to, the investigative agency at    already subject to Government inquiry
OIG to resolve billing, marketing or        an early stage generally benefits the         (including investigations, audits or
quality of care problems. In 1995, as       individual or company. In short, the          routine oversight activities) will not
part of the Operation Restore Trust         Protocol can help a health care provider      automatically preclude a disclosure.
(ORT) initiative, HHS and the               initiate with the OIG a dialogue directed     The disclosure, however, must be made
Department of Justice (DOJ) announced       at resolving its potential liabilities.       in good faith. The OIG will not continue
a pilot voluntary disclosure program,          The decision to follow the OIG’s           to work with a provider that attempts to
which embraced OIG’s longstanding           suggested Protocol rests exclusively          circumvent an ongoing inquiry or fails
policy favoring voluntary self­             with the provider. While the OIG can          to fully cooperate in the self-disclosure
disclosure. The demonstration program       offer only limited guidance on what is        process. In short, the OIG will continue
was developed in coordination with          inherently a case-specific judgement,         its practice of working with providers
representatives of the OIG, DOJ, various    there are several considerations that         that are the subject of an investigation
United States Attorneys’ Offices, the       should influence the decision. First, a       or audit, provided that the collaboration
Federal Bureau of Investigation and the     provider that uncovers an ongoing fraud       does not interfere with the efficient and
Health Care Financing Administration        scheme within its organization                effective resolution of the inquiry.
(HCFA). The pilot program was limited       immediately should contact the OIG,              The Provider Self-Disclosure Protocol
to five States (New York, Florida,          but should not follow the Protocol’s          is intended to facilitate the resolution of
Illinois, Texas and California) and four    suggested steps to investigate or             only matters that, in the provider’s
different types of providers (home          quantify the scope of the problem. If the     reasonable assessment, are potentially
health agencies, skilled nursing            provider follows the Protocol in this         violative of Federal criminal, civil or
facilities, durable medical equipment       type of situation without prior               administrative laws. Matters exclusively
suppliers, and hospice providers). It       consultation with the OIG, there is a         involving overpayments or errors that
gave those qualifying entities a formal     substantial risk that the Government’s        do not suggest that violations of law
mechanism for disclosing and seeking        subsequent investigation will be              have occurred should be brought
the resolution of matters relating to the   compromised.                                  directly to the attention of the entity
Medicare and Medicaid programs. In             Second, the OIG anticipates that a         (e.g., a contractor such as a carrier or an
1997, the pilot voluntary disclosure        provider will apply the Protocol’s            intermediary) that processes claims and
program was concluded. While there          suggested steps only after an initial         issues payment on behalf of the
was limited participation in the pilot,     assessment substantiates there is a           Government agency responsible for the
the OIG gained valuable insight into the    problem with non-compliance with              particular Federal health care program
variables influencing the decision to       program requirements. The initial             (e.g., HCFA for matters involving
make a disclosure to the Government.        identification of potential risk areas        Medicare). The program contractors are
   The OIG believes it must continue        should be less intensive and need not         responsible for processing the refund
encouraging the health care industry to     conform to the Protocol’s suggested           and will review the circumstances
conduct voluntary self-evaluations and      procedures. Similarly, when the OIG           surrounding the initial overpayment. If
                        Federal Register / Vol. 63, No. 210 / Friday, October 30, 1998 / Notices                            58401

the contractor concludes that the           pertinent relationships and the names        IV. Internal Investigation Guidelines
overpayment raises concerns about the       and addresses of any related entities, as       All disclosures to the OIG under the
integrity of the provider, the matter may   well as any affected corporate divisions,    Provider Self-Disclosure Protocol
be referred to the OIG. Accordingly, the    departments or branches. Additionally,       should include a report based on an
provider’s initial decision of where to     provide the name and address of the          internal investigation conducted by the
refer a matter involving non-compliance     disclosing entity’s designated               health care provider. While a provider
with program requirements should be         representative for purposes of the           is free to discuss its preliminary
made carefully.                             voluntary disclosure.                        findings with the OIG prior to
   The OIG is not bound by any findings        2. Indicate whether the provider has      completion of its investigation, the
made by the disclosing provider under       knowledge that the matter is under           matter cannot be resolved until a
the Provider Self-Disclosure Protocol       current inquiry by a Government agency       comprehensive assessment has been
and is not obligated to resolve the         or contractor. If the provider has           completed pursuant to the following
matter in any particular manner.            knowledge of a pending inquiry,              guidelines:
Nevertheless, the OIG will work closely     identify any such Government entity or
with providers that structure their         individual representatives involved.         A. Nature and Extent of the Improper or
disclosures in accordance with the          The provider must also disclose              Illegal Practice
Provider Self-Disclosure Protocol in an     whether it is under investigation or           A voluntary disclosure report should
effort to coordinate any investigatory      other inquiry for any other matters          demonstrate that a full examination of
steps or other activities necessary to      relating to a Federal health care program    the practice has been conducted. The
reach an effective and prompt               and provide similar information relating     report should contain a written
resolution. It is important to note that,   to those other matters.                      narrative that—
upon review of the provider’s disclosure       3. A full description of the nature of      1. Identifies the potential causes of
submission and/or reports, the OIG may      the matter being disclosed, including        the incident or practice (e.g., intentional
conclude that the disclosed matter          the type of claim, transaction or other      conduct, lack of internal controls,
warrants a referral to DOJ for              conduct giving rise to the matter, the       circumvention of corporate procedures
consideration under its civil and/or        names of entities and individuals            or Government regulations);
criminal authorities. Alternatively, the    believed to be implicated and an               2. Describes the incident or practice
provider may request the participation      explanation of their roles in the matter,    in detail, including how the incident or
of a representative of DOJ or a local       and the relevant periods involved.           practice arose and continued;
United States Attorney’s Office in             4. The type of health care provider         3. Identifies the division,
settlement discussions in order to          implicated and any provider billing          departments, branches or related
resolve potential liability under the       numbers associated with the matter           entities involved and/or affected;
False Claims Act or other laws. In either   disclosed. Include the Federal health          4. Identifies the impact on, and risks
case, the OIG will report on the            care programs affected, including            to, health, safety, or quality of care
provider’s involvement and level of         Government contractors such as               posed by the matter disclosed, with
cooperation throughout the disclosure       carriers, intermediaries and other third­    sufficient information to allow the OIG
process to any other Government             party payers.                                to assess the immediacy of the impact
agencies affected by the disclosed             5. The reasons why the disclosing         and risks, the steps that should be taken
matter.                                     provider believes that a violation of        to address them, as well as the measures
III. Voluntary Disclosure Submission        Federal criminal, civil or administrative    taken by the disclosing entity;
                                            law may have occurred.                         5. Delineates the period during which
   The disclosing provider will be
                                               6. A certification by the health care     the incident or practice occurred;
expected to make a submission as
                                            provider or, in the case of an entity, an      6. Identifies the corporate officials,
follows.
                                            authorized representative on behalf of       employees or agents who knew of,
A. Effective Disclosure                     the disclosing entity stating that, to the   encouraged, or participated in, the
  The disclosure must be made in            best of the individual’s knowledge, the      incident or practice and any individuals
writing and must be submitted to the        submission contains truthful                 who may have been involved in
Assistant Inspector General for             information and is based on a good faith     detecting the matter;
Investigative Operations, Office of         effort to bring the matter to the              7. Identifies the corporate officials,
Inspector General, Department of Health     Government’s attention for the purpose       employees or agents who should have
and Human Services, 330 Independence        of resolving any potential liabilities to    known of, but failed to detect, the
Avenue, SW, Cohen Building, Room            the Government.                              incident or practice based on their job
5409, Washington, DC 20201.                                                              responsibilities; and
                                            C. Substantive Information                     8. Estimates the monetary impact of
Submissions by telecopier, facsimile or
other electronic media will not be             As part of its participation in the       the incident or practice upon the
accepted.                                   disclosure process, the disclosing health    Federal health care programs, pursuant
                                            care provider will be expected to            to the Self-Assessment Guidelines
B. Basic Information                        conduct an internal investigation and a      below.
  The submission should include the         self-assessment, and then report its           B. Discovery and Response to the
following—                                  findings to the OIG. The internal review     Matter
  1. The name, address, provider            may occur after the initial disclosure of      The internal investigation report
identification number(s) and tax            the matter. The OIG will generally agree,    should relate the circumstances under
identification number(s) of the             for a reasonable period of time, to forego   which the disclosed matter was
disclosing health care provider. If the     an investigation of the matter if the        discovered and fully document the
provider is an entity that is owned,        provider agrees that it will conduct the     measures taken upon discovery to
controlled or is otherwise part of a        review in accordance with the Internal       address the problem and prevent future
system or network, include a                Investigation Guidelines and the Self-       abuses. In this regard, the report
description or diagram describing the       Assessment Guidelines set forth below.       should—
58402                   Federal Register / Vol. 63, No. 210 / Friday, October 30, 1998 / Notices

   1. Describe how the incident or            Revenue Service) in connection with the       recommendation to DOJ for resolution
practice was identified, and the origin of    disclosed matter.                             of the provider’s False Claims Act or
the information that led to its discovery.       C. The internal investigation report       other liability. Among the issues that
   2. Describe the entity’s efforts to        must include a certification by the           should be addressed in the plan are the
investigate and document the incident         health care provider, or in the case of an    following—
or practice (e.g., use of internal or         entity an authorized representative on           1. Review Objective—There should be
external legal, audit or consultative         behalf of the disclosing health care          a statement clearly articulating the
resources).                                   provider, indicating that, to the best of     objective of the review and the review
   3. Describe in detail the chronology of    the individual’s knowledge, the internal      procedure or combination of procedures
the investigative steps taken in              investigation report contains truthful        applied to achieve the objective.
connection with the entity’s internal         information and is based on a good faith         2. Review Population—The plan
inquiry into the disclosed matter             effort to assist the OIG in its inquiry and   should identify the population, which is
including the following—                      verification of the disclosed matter.         the group about which information is
   (a) A list of all individuals                                                            needed. In addition, there should be an
                                              V. Self-Assessment Guidelines
interviewed, including each                                                                 explanation of the methodology used to
                                                 To estimate the monetary impact of         develop the population and the basis for
individual’s business address and
                                              the disclosed matter, the health care         this determination.
telephone number, and their positions
                                              provider also should conduct an                  3. Sources of Data—The plan should
and titles in the relevant entities during
                                              internal financial assessment and             provide a full description of the source
both the relevant period and at the time
                                              prepare a report of its findings. This        of the information upon which the
the disclosure is being made. For all
                                              self-assessment may be performed at the       review will be based, including the legal
individuals interviewed, provide the
                                              same time as the internal investigation,      or other standards to be applied, the
dates of those interviews and the subject
                                              or commenced after the scope of the           sources of payment data and the
matter of each interview, as well as
                                              non-compliance with program                   documents that will be relied upon (e.g.,
summaries of the interview. The health
                                              requirements has been established. In         employment contracts, rental
care provider will be responsible for
                                              either case, the OIG will verify a            agreements, etc.).
advising the individual to be
                                              provider’s calculation of Federal health         4. Personnel Qualifications—The plan
interviewed that the information the
                                              care program losses and it is strongly        should identify the names and titles of
individual provides may, in turn, be
                                              recommended that, at a minimum, the           those individuals involved in any aspect
provided to the OIG. Additionally,
                                              review conform to the following               of the self-assessment, including
include a list of those individuals who
                                              guidelines.                                   statisticians, accountants, auditors,
refused to be interviewed and provide            A. Approach
the reasons cited;                                                                          consultants and medical reviewers, and
                                                 The self-assessment should consist of      describe their qualifications.
   (b) A description of files, documents,     a review of either—(1) all of the claims
and records reviewed with sufficient          affected by the disclosed matter for the      C. Sample Elements
particularity to allow their retrieval, if    relevant period; or (2) a statistically          If the provider, in consultation with
necessary; and                                valid sample of the claims that can be        the OIG, determines that the financial
   (c) A summary of auditing activity         projected to the population of claims         review will be based upon a sample, the
undertaken and a summary of the               affected by the matter for the relevant       work plan should also include the
documents relied upon in support of the       period. This determination should be          sampling plan as follows—
estimation of losses. These documents         based on the size of the population              1. Sampling Unit—The plan should
and information must accompany the            believed to be implicated, the variance       define the sampling unit, which is any
report, unless the calculation of losses is   of characteristics to be reviewed, the        of the designated elements that
undertaken pursuant to the Self-              cost of the self-assessment, the available    comprise the population of interest.
Assessment Guidelines, which contain          resources, the estimated duration of the         2. Sampling Frame—The plan should
specific reporting requirements.              review, and other factors as appropriate.     identify the sampling frame, which is
   4. Describe the actions by the health                                                    the totality of the sampling units from
care provider to stop the inappropriate       B. Basic Information
                                                                                            which the sample will be selected. In
conduct.                                        Regardless of which of these two            addition, the plan should document
   5. Describe any related health care        approaches is used, the disclosing            how the audit population differs from
businesses affected by the inappropriate      provider should submit to the OIG a           the sampling frame and what effect this
conduct in which the health care              work plan describing the self­                difference has on conclusions reached
provider is involved, all efforts by the      assessment process. The OIG will              as a result of the audit.
health care provider to prevent a             review the proposal and, where                   3. Sample Size—The size of the
recurrence of the incident or practice in     appropriate, provide comments on the          sample must be determined through the
the affected division as well as in any       plan in a timely manner. At its option,       use of a probe sample. Accordingly, the
related health care entities (e.g., new       the OIG may choose to carry out any           plan should include a description of
accounting or internal control                necessary activities at any stage of the      both the probe sample and the full
procedures, increased internal audit          review to verify that the process is          sample. At a minimum, the full sample
efforts, increased supervision by higher      undertaken correctly and to validate the      must be designed to generate an
management or through training).              review findings. While the OIG is not         estimate with a ninety (90) percent level
   6. Describe any disciplinary action        obligated to accept the results of a          of confidence and a precision of twenty­
taken against corporate officials,            provider’s self-assessment, findings          five (25) percent. The probe sample
employees and agents as a result of the       based upon procedures which conform           must contain at least thirty (30) sample
disclosed matter.                             to the Protocol will be given substantial     units and cannot be used as part of the
   7. Describe appropriate notices, if        weight in determining any program             full sample.
applicable, provided to other                 overpayments. In addition, the OIG will          4. Random Numbers—Both the probe
Government agencies, (e.g., Securities        use the validated provider self­              sample and the sample must be selected
and Exchange Commission and Internal          assessment report in preparing a              through random numbers. The source of
                        Federal Register / Vol. 63, No. 210 / Friday, October 30, 1998 / Notices                              58403

the random numbers used must be              review. In preparing the report, enough       without the OIG’s prior consent. If the
shown in the sampling plans. The OIG         details must be provided to clearly           OIG consents, the disclosing provider
strongly recommends the use of its           indicate what estimates are reported.         will be required to agree in writing that
Office of Audit Services’ Statistical                                                      the acceptance of the payment does not
                                             D. Certification
Sampling Software, also known as                                                           constitute the Government’s agreement
‘‘RAT-STATS,’’ which is currently              Upon completion of the self­                as to the amount of losses suffered by
available free of charge through the         assessment, the disclosing health care        the programs as a result of the disclosed
‘‘internet’’ at ‘‘www.hhs.gov/progorg/       provider, or in the case of an entity its     matter, and does not affect in any
oas/ratstat.html’’.                          authorized representative, must submit        manner the Government’s ability to
   5. Sample Design—Unless the               to the OIG a certification stating that, to   pursue criminal, civil or administrative
disclosing provider demonstrates the         the best of the individual’s knowledge,       remedies or to obtain additional fines,
need to use a different sample design,       the report contains truthful information      damages or penalties for the matters
the self-assessment should use simple        and is based on a good faith effort to        disclosed.
random sampling. If necessitated, the        assist OIG in its inquiry and verification
provider may use stratified or multistage    of the disclosed matter.                      VIII. Cooperation and Removal from the
sampling. Details about the strata, stages                                                 Provider Self-Disclosure Protocol
                                             VI. OIG’s Verification
and clusters should be included in the                                                        The disclosing entity’s diligent and
description of the audit plan.                  Upon receipt of a health care
                                                                                           good faith cooperation throughout the
   6. Estimate of Review Time per            provider’s disclosure submission, the
                                                                                           entire process is essential. Accordingly,
Sample Item—The plan should estimate         OIG will begin its verification of the
                                                                                           the OIG expects to receive documents
the time expended to locate the sample       disclosure information. The extent of
                                                                                           and information from the entity that
items and the staff hours expended to        the OIG’s verification effort will depend,
                                                                                           relate to the disclosed matter without
review a sample item.                        in large part, upon the quality and
                                                                                           the need to resort to compulsory
   7. Characteristics Measure by the         thoroughness of the internal
                                                                                           methods. If a provider fails to work in
Sample—The sampling plan should              investigative and self-assessment
                                                                                           good faith with the OIG to resolve the
identify the characteristics used for        reports. Matters uncovered during the
                                                                                           disclosed matter, that lack of
testing each sample item. For example,       verification process, which are outside
                                                                                           cooperation will be considered an
in a sample drawn to estimate the value      of the scope of the matter disclosed to
                                                                                           aggravating factor when the OIG
of overpayments due to duplicate             the OIG, may be treated as new matters
                                                                                           assesses the appropriate resolution of
payments, the characteristics under          outside the Provider Self-Disclosure
                                                                                           the matter. Similarly, the intentional
consideration are the conditions that        Protocol.
                                                To facilitate the OIG’s verification and   submission of false or otherwise
must exist for a sample item to be a
                                             validation processes, the OIG must have       untruthful information, as well as the
duplicate. The amount of the duplicate
                                             access to all audit work papers and           intentional omission of relevant
payment is the measurement of the
                                             other supporting documents without the        information, will be referred to DOJ or
overpayment. The sampling plan must
                                             assertion of privileges or limitations on     other Federal agencies and could, in
also contain the decision rules for
                                             the information produced. In the normal       itself, result in criminal and/or civil
determining whether a sample item
                                             course of verification, the OIG will not      sanctions, as well as exclusion from
entirely meets the criterion for having
                                             request production of written                 participation in the Federal health care
characteristics or only partially meets
                                             communications subject to the attorney­       programs.
the criterion.
   8. Missing Sample Items—The               client privilege. There may be                  Dated: October 21, 1998.
sampling plan must include a                 documents or other materials, however,        June Gibbs Brown,
discussion of how missing sample items       that may be covered by the work               Inspector General.
were handled and the rationale.              product doctrine, but which the OIG           [FR Doc. 98–29064 Filed 10–29–98; 8:45 am]
   9. Other Evidence—Although sample         believes are critical to resolving the        BILLING CODE 4150–04–P
results should stand on their own in         disclosure. The OIG is prepared to
terms of validity, sample results may be     discuss with provider’s counsel ways to
combined with other evidence in              gain access to the underlying                 DEPARTMENT OF HEALTH AND
arriving at specific conclusions. If         information without the need to waive         HUMAN SERVICES
appropriate, indicate what other             the protections provided by an
substantiating or corroborating evidence     appropriately asserted claim of               National Institutes of Health
was developed.                               privilege.
   10. Estimation Methodology—Because                                                      National Cancer Institute:
the general purpose of the review is to      VII. Payments                                 Opportunities for Cooperative
estimate the monetary losses to the            Because of the need to verify the           Research and Development
Federal health care programs, the            information provided by a disclosing          Agreements (CRADAs) for the Joint
methodology to be used must be               health provider, the OIG will not accept      Evaluation and Development of
variables sampling using the difference      payments of presumed overpayments             Methods to Generate and Expand In-
estimator. To estimate the amount            determined by the health care provider        Vitro Modified Dendritic Cell
implicated in the disclosed matter, the      prior to the completion of the OIG’s          Populations in Order to Elicit
provider must use the mean point             inquiry. However, the provider is             Phenotype Specific Immune
estimate. The statistical estimates must     encouraged to place the overpayment           Responses
be reported using a ninety (90) percent      amount in an interest-bearing escrow
confidence level. The use of RAT-            account to minimize further losses.             The NCI is looking for CRADA
STATS to calculate the estimates is          While the matter is under OIG inquiry,        Collaborators to jointly develop this
strongly recommended.                        the disclosing provider must refrain          dendritic cell immunology technology.
   11. Reporting Results—The sampling        from making payment relating to the           AGENCY: National Cancer Institute,
plan should indicate how the results         disclosed matter to the Federal health        National Institutes of Health, PHS,
will be reported at the conclusion of the    care programs or their contractors            DHHS.
